office of inspector gener al
semiannual report
    to congress
  APRIL 1, 2012 to SEPTEMBER 30, 2012
                                     FOREWORD 

The National Archives and Records Administration (NARA) has been accurately described as
the common thread woven throughout the tapestry ofthe entirefederal government. From the
largest department to the smallest commission, records are omnipresent in our system. These
recordsform our collective knowledge ofwhat our government does, how our leaders' policies
will be implemented, and how our citizens' rights are respected. In short, these records
document who we are as a nation, where we have been, and where we plan to go. NARA is
entrusted by the nation to collect, preserve, and protect these records; while also making them
available for use. This is a Herculean task, and the women and men ofNARA 's staffshould be
commendedfor the service they provide to our stakeholders on a daily basis.

However, in order to make sure NARAfulfilis its mission now and in thefuture, NARA must
strengthen and improve the way they identify and control risk. Management is responsible for
establishing and maintaining internal controls to achieve effective and efficient operations,
reliable financial reporting, and compliance with laws and regulations. Additionally, the
GovernmentAccountability Office's "Standardsfor Internal Control in the Federal
Government" state:

       Federal policymakers and program managers are continually seeking ways to
       better achieve agencies' missions and program results, in other words, they are
       seeking ways to improve accountability. A key factor in helping achieve such
       outcomes and minimize operational problems is to implement appropriate
       internal control. Effective internal control also helps in managing change to
       cope with shifting environments and evolving demands and priorities.

During this reporting period our Office ofAudits identified weak, poor, and nonexistent
management controls in some NARA programs, specifically focusing on NARA's information
technology operations. Likewise the Office ofInvestigations found internal control
weaknesses. If these weaknesses had been properly addressed, they might have potentially
minimized or prevented the opportunity for criminal conduct.

Unfortunately some program offices have yet to realize the value ofinternal controls in
accomplishing NARA 's mission. Improvement only happens when parties are willing to put
away their preconceived notions, and take a fresh fact-based and data-driven look at challenges.
The agency and the OIG share the same goal, improvement. We strive to provide independent,
high-quality products which move NARA in a positive direction, and look forward to
cooperation from all parties to effectively generate positive change.



                                                ~g~
                                                  Acting Inspector General




SEMIANNUAL REpORT TO CONGRESS
Aprill, 2012 to September 30, 2012                                                Page;
TABLE OF CONTENTS

Foreword......................................................................................................................................... i


Executive Summary .......................................................................................................................2


Introduction ...................................................................................................................................5


Activities .........................................................................................................................................7


Audits ...........................................................................................................................................10


Investigations................................................................................................................................16


Top Ten Management Challenges .............................................................................................26


Reporting Requirements ............................................................................................................30





 Visit http://www.archives.gov/oig/ to learn more about the National Archives Office of Inspector General.

SEMIANNUAL REPORT TO CONGRESS                                                                                                           Page 1

April 1, 2012 to September 30, 2012

EXECUTIVE SUMMARY

This is the 48th Semiannual Report to the Congress summarizing the activities and
accomplishments of the National Archives and Records Administration (NARA) Office of
Inspector General (OIG). A summary of NARA’s top ten management challenges is included as
well. The highlights of our major functions are summarized below.

                                      Audits and Reports
The Audit Division continued to examine the functioning of NARA’s Information Technology
(IT) systems, the development of NARA’s Electronic Records Archives (ERA) system, and
assess the economy and efficiency of NARA’s programs and operations. During the reporting
period, we issued the following audit reports and management letters.

Information Technology (IT)

    •	 Network Discovery and Assessment Report. NARA’s network is running on
       borrowed time and without modular design and more forward thinking strategic
       planning, the future of NARA’s network services is bleak. The current network
       architecture jeopardizes the NARA mission due to fundamental design flaws which
       impact the performance, security, and efficiency of the network. (OIG Audit Report
       #12-11, dated August 27, 2012. See Page 11.)

    •	 NARA’s Classified Systems. The confidentiality and security of classified information
       at NARA is at risk. NARA has developed classified information system policies in
       accordance with Federal guidelines, but has not consistently implemented these
       requirements. For example, of the seven classified systems reviewed, only one has a
       current authorization to operate. NARA officials have not taken the appropriate and
       sufficient steps to adequately manage their classified systems. (OIG Audit Report #12­
       15, dated July 23, 2012. See Page 11.)

    •	 NARA’s Data Center Consolidation Initiative (DCCI). OMB directed agencies to
       inventory their data center assets, develop consolidation plans throughout FY 2010, and
       integrate those plans into agency FY 2012 budget submissions. NARA’s plan failed to
       include all agency data centers, a complete list of hardware and software assets, or an
       adequate cost benefit analysis. NARA also had not met preliminary targets identified in
       their data center consolidation plan, and had not reduced energy consumption at the data
       center. Additionally, NARA had not conducted the analysis needed to consolidate and
       virtualize servers, resulting in overlap and duplication within NARA’s main datacenter.
       (OIG Audit Report #12-09, dated May 10, 2012. See Page 12.)

Programs and Operations

    •	 Management issues. A management letter was issued regarding some issues in an area
       which is also related to an ongoing criminal investigation, this management letter will be
       discussed in detail when the investigation concludes.



SEMIANNUAL REPORT TO CONGRESS                                                            Page 2
April 1, 2012 to September 30, 2012
EXECUTIVE SUMMARY

    •	 Process of Safeguarding and Accounting for Presidential Artifacts. Some
       improvements have occurred to strengthen controls over Presidential artifacts (including
       gifts from foreign heads of state, etc.) but they continue to be at risk of loss or theft. The
       cause is multi-faceted, and can best be attributed to a lack of resources, failure to adopt
       and deploy a cross-library automated inventory system, and a lack of effective planning
       and setting of priorities to ensure all Presidential Libraries complete timely inventories
       of artifacts. (OIG Audit Report #12-10, dated September 13, 2012. See page 12.)

    •	 NARA’s Public Transit Subsidy Program. NARA did not implement adequate or
       effective controls to reduce the likelihood of fraud, waste, and abuse. For example, (a)
       the information in benefit applications was not verified; (b) NARA did not enforce the
       requirement to renew benefits annually; (c) employees receiving subsidized parking did
       not relinquish their parking permit; (d) NARA has no effective process to determine
       whether employees adjust their benefits based on travel, telework, or change of address;
       (e) exit procedures were not effective to prevent separated employees from receiving
       transit benefits; and (f) NARA’s listing of transit program participants is not accurate.
       (OIG Audit Report #12-17, dated August 27, 2012. See page 13.)

    •	 NARA’s Parking Program. NARA expended over $430,000 for an automated license
       plate recognition system at the College Park, MD facility which is not fully functional.
       This condition was the result of inadequate planning, lack of appropriate oversight, and
       flawed contractual terms. Both the assignment of culpability and the opportunity to
       identify the cause of the failure were compromised as emails associated with
       the procurement action were inadvertently deleted. As a result, NARA is left with a
       failed parking control system, a lack of recourse to apply against the vendor, and the loss
       of taxpayer funds. (OIG Audit Report #12-12, dated June 5, 2012. See page 14.)

    •	 NARA’s Office of Government Information Services (OGIS). We examined whether
       OGIS was adequately established, and meeting the intent for which it was established.
       In the absence of formal metrics directing OGIS how to meet its statutory requirements
       the OIG analyzed OGIS case files, reviewed documentation, and interviewed OGIS
       officials to determine if OGIS was meeting its mission by adhering to its statutory
       requirements. We found OGIS met their requirements. (OIG Audit Report #12-14,
       dated September 11, 2012. See page 15.)

    •	 Contractor Oversight. We observed NARA did not have an adequate process
       to assess whether a prime contractor was properly carrying out subcontractor
       oversight. This could adversely affect NARA’s cost for subcontractor services.
       In fact, NARA did not have a firm grasp of the specific tasks the subcontractor
       was performing on a daily basis. We also noted, (1) the contractor did not use
       competition to acquire the services of the subcontractor; (2) the subcontracts did
       not identify the specific work to be performed and the deliverables to be provided
       by the subcontractor; and (3) sufficient evidence subcontractor personnel were
       U.S. citizens, or security background investigations were conducted, was not

       submitted prior to individuals working on the subcontracts. (Management Letter

       #12-16, dated September 28, 2012.)


SEMIANNUAL REPORT TO CONGRESS                                                                Page 3
April 1, 2012 to September 30, 2012
EXECUTIVE SUMMARY

                                        Investigations

Significant accomplishments by the Office of Investigations (OI) during this reporting period
include:

    •	 Following conviction for embezzling historically significant sound recording discs from
       NARA, a former NARA employee was sentenced to 18 months in federal prison,
       ordered to pay $99,863 in restitution and required to forfeit 4,806 sound recordings.

    •	 A presidential historian convicted of conspiracy and theft of historical documents was
       sentenced to seven years in federal prison and ordered to pay $46,525 in restitution.

    •	 The OI assisted NARA and the Department of Justice (DoJ) in the recovery of a 

       presidential pardon signed by Abraham Lincoln.


    •	 The Archival Recovery Team recovered 1,950 holdings; including 1,639 sound
       recordings donated by a private citizen who purchased them from the former NARA
       employee convicted of embezzling NARA property, and 289 documents believed to have
       been stolen from four Presidential Libraries.

    •	 During an OI investigation into their disappearance, several records related to Heinrich
       Himmler were discovered and returned to NARA’s treasure vault.

    •	 As a result of an OI criminal investigation, an admissions cashier at a Presidential
       Library admitted to stealing money from the library. The cashier entered into a pre-trial
       diversion program and will pay $2,000 in restitution to NARA.

    •	 Following a security incident at Archives I, the OI issued a Management Letter

       highlighting vulnerabilities in visitor screening and contract security training and 

       response.


The OI opened six investigations and 55 complaints for preliminary investigation, while closing
13 investigations and 55 complaints. At the end of this reporting period, the OI had 21 ongoing
investigations and 19 complaints. Three investigations and 11 complaints were referred to
NARA management for information or appropriate action. Thirty-five percent of the ongoing
investigations and complaints involve the potential alienation of NARA holdings. This number
reflects continuing OI efforts through the Archival Recovery Team (ART) to identify and
investigate lost, missing, and stolen NARA holdings. The DoJ continues to work with OI on
several ongoing investigations including allegations of theft, destruction of Federal records, and
conspiracy.




SEMIANNUAL REPORT TO CONGRESS                                                               Page 4
April 1, 2012 to September 30, 2012
INTRODUCTION

        About the National Archives and Records Administration

Mission
The National Archives and Records Administration serves American democracy by safeguarding
and preserving the records of our Government, ensuring the people can discover, use, and learn
from this documentary heritage. Further, the agency ensures continuing access to the essential
documentation of the rights of American citizens and the actions of their government; and
supports democracy, promotes civic education, and facilitates historical understanding of our
national experience.

Background
NARA, by preserving the nation’s documentary history, serves as a public trust on which our
democracy depends. It enables citizens to inspect for themselves the record of what the
Government has done. It enables officials and agencies to review their actions and helps citizens
hold them accountable. It ensures continuing access to essential evidence documenting the rights
of American citizens, the actions of Federal officials, and the national experience.

Federal records reflect and document America’s development over more than 200 years. They
are great in number, diverse in character, and rich in information. NARA’s traditional holdings
amount to 4.3 million cubic feet of records. These holdings also include, among other things,
letters, reports, architectural/engineering drawings, maps and charts; moving images and sound
recordings; and photographic images. Additionally, NARA maintains nearly 600,000 artifact
items and more than 515 terabytes of electronic records. The number of records born and stored
solely in the electronic world will only continue to grow, thus NARA is developing the
Electronic Record Archives to address this burgeoning issue.

NARA involves millions of people in its public programs, which include exhibitions, tours,
educational programs, film series, and genealogical workshops. In FY 2011, NARA had 44
million online visits in addition to hosting 3.9 million traditional museum visitors, all while
responding to 1.1 million written requests from the public. NARA also publishes the Federal
Register and other legal and reference documents, forming a vital link between the Federal
Government and those affected by its regulations and actions. Through the National Historical
Publications and Records Commission, NARA helps preserve and publish non-Federal historical
documents that also constitute an important part of our national heritage. Additionally, NARA
administers 13 Presidential libraries preserving the papers and other historical materials of all
past Presidents since Herbert Hoover.

Resources
In fiscal year (FY) 2013, NARA requested an annual budget of approximately $382.7 million
including $371.7 million for operations, $8 million for repairs and restorations of facilities, and
$3 million for grants. The first six months of FY 2013 will run under a Continuing Resolution
funding operations at FY 2012 levels (approximately $391.5 million/year for NARA). With
approximately 3,266 (estimated) Full-time Equivalents (FTEs), NARA operates 44 facilities
nationwide.



SEMIANNUAL REPORT TO CONGRESS                                                                Page 5
April 1, 2012 to September 30, 2012
INTRODUCTION

                  About the Office of Inspector General (OIG)

The OIG Mission

The OIG serves the American citizen by improving the effectiveness, efficiency and economy of
NARA programs and operations. As part of this we detect and prevent fraud and abuse in
NARA programs, and strive to ensure proper stewardship over Federal funds. We accomplish
this by providing high-quality, objective audits and investigations; and serving as an
independent, internal advocate. Unique to our mission among other OIGs is our duty to ensure
NARA protects and preserves the items belonging in our holdings, while safely providing the
American people with the opportunity to discover, use and learn from this documentary heritage.

Background
The Inspector General Act of 1978, as amended, along with the Inspector General Reform Act of
2008, establishes the OIG’s independent role and general responsibilities. The Inspector General
reports to both the Archivist of the United States and the Congress. The OIG evaluates NARA’s
performance, makes recommendations for improvements, and follows up to ensure economical,
efficient, and effective operations and compliance with laws, policies, and regulations. In
particular, the OIG:

•	 assesses the effectiveness, efficiency, and economy of NARA programs and operations;
•	 recommends improvements in policies and procedures to enhance operations and correct
   deficiencies;
•	 recommends cost savings through greater efficiency and economy of operations, alternative
   use of resources, and collection actions; and
•	 investigates and recommends legal and management actions to correct fraud, waste, abuse, or
   mismanagement.

Further, the OIG investigates criminal and administrative matters concerning the agency, helping
ensure the safety and viability of NARA’s holdings, customers, staff, and resources.

Resources
In FY 2012, Congress provided $4.1 million for the OIG’s appropriation, including authorization
for 23 FTEs. The first six months of FY 2013 will run under a Continuing Resolution funding
operations at FY 2012 levels. At full staffing, personnel expenses account for approximately
93% of the OIG budget. A continual worry has been the OIG would not have sufficient funding
to send staff outside of Washington D.C. if an incident occurred at the end of the fiscal year. We
do not believe it is prudent to ask for appropriated funds each year for such a contingency.
Instead we have sought a limited transfer provision from NARA so we could ask for available
end-of-year funds from NARA in such a circumstance. However, NARA does not support our
position and states they will not request such a transfer provision.

At the beginning of the period, the OIG had two audit vacancies to fill. During the period two
Special Agent vacancies were created when one agent moved to another agency and one agent
retired. Currently the OIG employs one Inspector General, one support staff, nine FTEs devoted
to audits, six FTEs devoted to investigations, and a counsel to the Inspector General.


SEMIANNUAL REPORT TO CONGRESS                                                             Page 6
April 1, 2012 to September 30, 2012
ACTIVITIES

              Involvement in the Inspector General Community

Counsel of Inspectors General on Integrity and Efficiency (CIGIE)
Legislation Committee
The IG served as a member of the CIGIE Legislation Committee. The Legislation Committee
provides regular and ongoing communication regarding legislative issues and other matters of
common interest between the Congress and CIGIE. Specifically, the Committee provides timely
information about Congressional initiatives to the IG community; solicits the views and concerns
of the community in response to legislative initiatives and Congressional requests; and presents
views and recommendations to Congressional committees and staff, the Government
Accountability Office, and the Office of Management and Budget on issues and legislation
affecting the IG community.

CIGIE Information Technology (IT) Committee
The IG served as a member of the CIGIE IT Committee. The IT Committee facilitates effective
IT audits, evaluations, and investigations by Inspectors General. The IT Committee also
provides a vehicle for the expression of the IG community's perspective on Government-wide IT
operations.

Federal Audit Executive Council (FAEC)
The Assistant Inspector General for Audits (AIGA) continued to serve as a representative to the
FAEC. The AIGA attended FAEC’s meeting to discuss topics such as financial statement audit
issues, audit training, opinion reports on internal controls, and information security.

Assistant Inspectors General for Investigations (AIGI) Committee
The AIGI Committee serves as a standing subcommittee to the CIGIE Investigations Committee.
As a member, the AIGI helps provide guidance, assistance and support to the CIGIE
Investigations Committee in the performance of its duties. In addition, the AIGI Committee
serves as a conduit for suggestions, issues and concerns that affect the OIG investigations
community to the CIGIE Investigations Committee for appropriate action.

Council of Counsels to Inspectors General (CCIG)
The OIG counsel continues to be an active member of the CCIG, and communicated regularly
with fellow members. The CCIG provides a rich environment where legal issues can be raised
and interpretations can be presented and reviewed with an experienced network of OIG lawyers.
During regular meetings multiple topics were discussed and addressed.




SEMIANNUAL REPORT TO CONGRESS                                                           Page 7
April 1, 2012 to September 30, 2012
ACTIVITIES

                    Management Assistance and Other Work

•	 Responded to multiple requests for OIG records under the Freedom of Information Act.

•	 Reviewed legislative proposals and provided feedback to appropriate entities and reviewed
   newly passed legislation for its affect on NARA and the NARA OIG.

•	 Helped Department of Defense prosecutors identify a NARA witness to testify about an
   accused’s service.

•	 Coordinated with the National Personnel Records Center to provide information to another
   OIG conducting a major criminal investigation

•	 Provided comment and input into several NARA directives and regulations covering a
   variety of topics.

                                 Peer Review Information

Peer Review of NARA OIG’s Audit Organization
In accordance with the Government Accountability Office’s Government Auditing Standards
(GAS) and CIGIE guidelines, the NARA OIG system of quality control for the audit
organization in effect for the year ended September 30, 2010 was reviewed by the Federal
Communications Commission (FCC) OIG. FCC OIG concluded “the system of quality control
for the audit organization of NARA OIG in effect for the year ended September 30, 2010 has
been suitably designed and complied with to provide NARA OIG with reasonable assurance of
performing and reporting in conformity with applicable professional standards in all material
respects. Federal audit organizations can receive a rating of pass; pass with deficiencies, or fail.
NARA OIG has received a peer review rating of pass.” There are no outstanding
recommendations from this review.

NARA’s next audit organization peer review is scheduled for late 2013.

Peer Review of NARA OIG’s Office of Investigations
NARA OIG’s Office of Investigations was last peer reviewed by the National Science
Foundation in May of 2008. There are no outstanding recommendations from this review.

In February 2012, the Attorney General of the United States granted the Inspector General’s
application for statutory law enforcement authority. Accordingly, the OI has begun preparations
for the now mandatory peer review that must be completed within three years of being granted
statutory authority. The peer review is currently scheduled for late 2014.




SEMIANNUAL REPORT TO CONGRESS                                                                Page 8
April 1, 2012 to September 30, 2012
ACTIVITIES

Peer Review of the U.S. Nuclear Regulatory Commission’s Audit
Organization
During the reporting period we reviewed the system of quality control for the audit organization
of the U.S. Nuclear Regulatory Commission Office of Inspector General (NRC OIG) in effect
for the year ended March 31, 2012. We performed our review in accordance with the GAS and
CIGIE guidelines. In our opinion, the system of quality control for the audit organization of
NRC OIG in effect for the year ended March 31, 2012, has been suitably designed and complied
with to provide NRC OIG with reasonable assurance of performing and reporting in conformity
with applicable professional standards in all material respects. The NRC OIG received a peer
review rating of pass. The report can be found at their website, http://www.nrc.gov/insp­
gen/auditpro/peer-review.html. (OIG Audit Report #12-19, dated September 28, 2012)

                           Response to Congressional Items

Briefings to Congressional Committee Staffs
During the reporting period we briefed several Congressional Committee staffs on topics of
current interest such as ongoing investigations, administrative issues and other happenings.

Request for Information on Non-Public Cases
In accordance with a written request, we provided Senator Charles Grassley and Senator Tom
Coburn with a biannual report on all closed investigations, evaluations, and audits that were
not disclosed to the public.

Information on Open Audit Recommendations

Chairman Darrell Issa of the House Oversight and Government Reform Committee requested,
and was provided with, information on open and/or unimplemented OIG audit recommendations.

Information on the Use of “Seven Day Letters” Under the IG Act

Chairman Darrell Issa of the House Oversight and Government Reform Committee requested,
and was provided with, information on how we keep Congress fully and currently informed
concerning fraud and other serious problems, abuses, and deficiencies.

Inventory of Commercial Activities

We submitted to OMB our FY2012 inventory of commercial activities performed by OIG
employees as required under the Federal Activities Inventory Reform Act of 1998 (the FAIR
Act). OMB is required to list the available inventories in the Federal Register. The agency head
must transmit a copy of the inventory to the Congress, and make it available to the public.


SEMIANNUAL REPORT TO CONGRESS                                                            Page 9
April 1, 2012 to September 30, 2012
AUDITS

                                                       Overview

This period, we issued:

     •	 eight final audit reports and
     •	 three management letters. 1

We completed fieldwork on:

    •	 an audit of NARA’s Electronic Records Archives System’s capability to preserve
       electronic records to ensure the continued existence, accessibility, and authenticity of
       electronic records over time;

    •	 an audit of NARA’s Internal Control Program to evaluate compliance with Federal laws
       and regulations, the adequacy of NARA’s annual assurance statement, the accuracy and
       adequacy of individual office assurance statements and their compliance with federal and
       NARA guidance concerning internal control, and NARA’s progress towards development
       of a formalized and comprehensive internal control program.

We initiated work on:

    •	 an evaluation of NARA’s Compliance with the Federal Information Security
       Management Act to assess the following NARA programs: continuous monitoring
       management, configuration management, identity and access management, incident
       response and reporting, risk management, security training, plan of action and milestones,
       remote access management, contingency planning, contractor systems, and security
       capital planning;

    •	 an audit of NARA’s FY 2012 Consolidated Financial Statements to: (1) express an
       opinion on whether the statements are fairly presented, in all mater aspects, inconformity
       with U.S. generally accepted accounting principles; (b) report any significant deficiencies
       and material weaknesses in internal control that come to our attention as a result of the
       audit; and (c) report on our test of NARA’s compliance with selected provisions of laws
       and regulations;

    •	 an audit of NARA’s Preservation Program to determine if program controls are adequate
       in order to meet the mission of preserving Federal records;

    •	 an audit of the processing of textual and electronic records to evaluate and assess the
       controls over the process of making archival records available to the public.




1 Management letters are used to address issues which need to be quickly brought to the Archivist’s or management’s attention.


SEMIANNUAL REPORT TO CONGRESS                                                                                        Page 10
April 1, 2012 to September 30, 2012
AUDITS

                                      Audit Summaries

Network Discovery and Assessment Report
The OIG contracted with Information Management Resources Inc. (IMRI) to assist in identifying
inadequacies within NARA’s network, and suggest how to increase efficiency to better support
NARA’s business needs. The overall objective of the audit was to assess NARA’s current and
planned network architecture and design; and provide recommendations to improve
performance, security, and efficiency.

The current network architecture does not adhere to vendor design best practices, and flat
network topology directly results in higher risk of significant outages and ongoing performance
issues affecting productivity of NARANet users. The audit identified multiple deficiencies with
the network architecture, many of which stem from the lack of strategic planning with regard to
the redundancy, resiliency and overall design of the network. These issues not only allow for
security and performance problems, but they inhibit NARA IT management from effectively
establishing a tactical and innovative strategy for the next generation of NARANet.

IMRI made 51 recommendations intended to assist NARA in correcting existing deficiencies and
implementing a platform allowing NARA executives to ensure processes and technology are in
place to support future business initiatives. Management concurred with 33 recommendations
and partially concurred with 9 recommendations. Management did not concur with eight
recommendations and believed one recommendation was overcome by events. (Audit Report
#12-11, dated August 27, 2012.)

NARA’s Classified Systems
The overall objective of this audit was to determine whether NARA’s classified systems were
properly managed and adequately secured. Specifically, we sought to determine whether the
security of NARA’s classified systems complied with Federal and NARA security policies and
guidelines. Executive Order 13526, Classified National Security Information, dated December
29, 2009, directs the agency head or senior agency official to establish uniform procedures to
ensure the confidentiality, integrity, and availability of automated information systems. This
includes networks and telecommunications systems that collect, create, communicate, compute,
disseminate, process, or store classified information.

Although NARA has developed classified information system policies in accordance with
Federal guidelines, the Office of Information Services personnel, system owners, and designees
responsible for ensuring the confidentiality, integrity, and availability of NARA classified
information systems have not consistently implemented these requirements. Specifically, of the
seven classified systems reviewed, only one has a current authorization to operate. Further,
NARA officials have not taken the appropriate and sufficient steps to adequately manage their
classified systems. Management deficiencies include:
    •	 Weaknesses recognized during annual security assessments were not always

        communicated and properly addressed;

    •	 Plans of Actions and Milestones were not always maintained, updated, or reviewed, as
        required;
    •	 Inventories of systems and components were not always updated and completed;

SEMIANNUAL REPORT TO CONGRESS                                                           Page 11
April 1, 2012 to September 30, 2012
AUDITS

    •   Contingency Plans had not been developed and tested for all classified systems; and
    •   Continuous monitoring strategies had not been established or implemented.

Without proper oversight and accountability to ensure implementation of NARA’s Classified
Information Security Program as it relates to classified information systems, NARA is hindered
in its ability to adequately identify and reduce the associated vulnerabilities and control failures.
This places the confidentiality and security of classified information at risk. Although all risks
cannot be avoided, the controls and processes identified in during the audit are fundamental to
the security of NARA’s classified information systems. We made eight recommendations to
assist NARA in strengthening the security and control of its classified information systems.
Management concurred with each of the recommendations. (OIG Audit Report #12-15, dated
July 23, 2012.)

NARA’s Data Center Consolidation Initiative
We reviewed NARA’s implementation of OMB’s Federal Data Center Consolidation Initiative,
and assessed NARA’s progress in meeting its consolidation objectives and consolidating its data
centers. NARA had not met preliminary targets identified in their data center consolidation plan
and had not reduced energy consumption at the data center. Although NARA developed a Data
Center Consolidation Plan in response to OMB’s Federal Data Center Consolidation Initiative,
NARA’s plan was incomplete and did not reflect key aspects of the initiative. Specifically, the
plan did not list all of the agency’s data centers, did not include a complete list of hardware and
software assets, and did not include an adequate cost benefit analysis. Without a complete
baseline state of the environment NARA does not have the information needed to identify
potential areas of cost savings.

We also found NARA had not conducted the analysis needed to consolidate and virtualize
servers resulting in overlap and duplication within NARA’s main data center. In addition, the
governance structure outlined in the plan did not provide the appropriate oversight needed to
measure and manage implementation of the FDCCI.

We made six recommendations to assist NARA in implementing the initiative and potentially
resulting in cost savings by reducing energy usage. Management concurred with four of the
recommendations and agreed to take corrective action. For the remaining two recommendations,
management agreed action needed to be taken but did not concur with the proposed
implementation process. (Audit Report #12-09, dated May 10, 2012.)

Follow-up Review of the Process of Safeguarding and Accounting for
Presidential Artifacts
In October 2007 we issued OIG Audit Report #08-01, Audit of the Process of Safeguarding and
Accounting for Presidential Library Artifacts. The report identified material deficiencies in the
cataloguing, storage and protection of presidential artifacts held by NARA. Management
concurred with all five recommendations and presented an Action Plan. This follow-up audit
identified some improvements have occurred, but gifts from foreign heads of state, luminaries
and common citizens continue to be at risk of loss or theft. The cause of this condition is multi­
faceted and can best be attributed to a lack of resources, failure to adopt and deploy a cross-


SEMIANNUAL REPORT TO CONGRESS                                                                 Page 12
April 1, 2012 to September 30, 2012
AUDITS

library automated inventory system, and a lack of effective planning and setting of priorities to
ensure all Presidential Libraries complete timely inventories of museum artifacts.

In addition, during the conduct of this follow-up audit we identified seven new issues warranting
corrective action: (1) newly established time-lines for completing artifact inventories do not
promote efficient or timely completion of the inventory process including prompt identification
of missing or lost artifacts; (2) discrepancies between completed physical inventories and legacy
documentation have not been adequately resolved; (3) the Office of Presidential Libraries (LP)
does not have sufficient controls to ensure an adequate separation of duties over the accounting
for artifacts; (4) management controls over valuable and vulnerable (V/V) artifacts need to be
strengthened; (5) controls to safeguard incumbent Presidential artifacts placed in courtesy
storage need improvement; (6) physical security and other management controls need
improvement at the five Presidential Libraries visited; and (7) museum policies need updating.

We made eight recommendations for action necessary to address the findings identified in the
report and to assist management in improving program stewardship and mitigating the ongoing
material weakness. Management concurred with all but one recommendation. (Audit Report
#12-10, dated September 13, 2012.)

NARA’s Public Transit Subsidy Program
We reviewed the adequacy of internal controls over the administration of NARA’s Public Transit
Subsidy Program (PTSB), focusing on whether controls identified by the Office of Management and
Budget (OMB) were adequately implemented by On May 14, 2007, OMB issued a letter listing 10
minimum internal controls to prevent and deter abuse. All OMB internal controls were addressed in
NARA policies or in NARA’s newly implemented monthly internal reviews of transit benefits
processes. However, these controls had not been implemented adequately or effectively to reduce the
likelihood of fraud, waste, and abuse. Specifically, we found the following:
    •	 NARA officials did not verify the completeness and accuracy of information in employee
        transit benefit applications. Incomplete and inaccurate applications and overstated
        commuting costs result in the inappropriate payments.
    •	 NARA employees did not renew their transit benefits annually as required. Of the 29 in
        our sample, five did not meet this requirement and should have been ineligible to
        participate in the transit program until a renewal application was received.
    •	 Based on NARA policy “If you regularly use subsidized parking supplied by a Federal
        agency, you are not eligible to participate in the PTSP. If you receive subsidized (or free)
        parking, you must relinquish your parking permit before receiving the subsidy.” Of the
        74 transit participants at our College Park, MD facility, seven redeemed $8,008 in transit
        benefits from October 2009 through May 2011 while also on NARA’s parking lists.
    •	 NARA has not implemented an effective process to determine whether employees adjust
        their benefits based on travel, telework, or change of address.
    •	 Exit procedures were not effective to prevent separated employees from receiving transit
        benefits to which they are not entitled. For example, of the 25 transit participants which
        separated from NARA, almost half continued to receive transit benefits after they left.
    •	 NARA’s listing of transit program participants is not accurate.



SEMIANNUAL REPORT TO CONGRESS                                                              Page 13
April 1, 2012 to September 30, 2012
AUDITS

We made nine recommendations to assist the agency in strengthening the transit program, to
address OMB internal control requirements, and to improve the effectiveness of NARA’s Public
Transit Subsidy Program. Management concurred with all nine recommendations. (Audit
Report #12-17, dated August 27, 2012.)

NARA’s Parking Control System at Archives II
NARA’s Archives II facility (AII) in College Park, MD, has three separate vehicle entrances. In
order to control parking, a radio-frequency identification (RFID) system was installed at one of
the vehicle entrances around 2005. The RFID system also reduced costs by replacing the
security officer assigned to this vehicle entrance. NARA had relied on parking permits and
security officers to control parking at AII’s other two vehicle entrances. In August of 2008 the
RFID system experienced a failure. When NARA personnel contacted the RFID system vendor
to request repairs, they were informed the system was no longer supported by the vendor.
Shortly thereafter NARA decided to replace the existing RFID system with a License Plate
Recognition (LPR) system to read license plates at all of AII’s vehicle entrances and control
parking at the vehicle entrance which relied on the RFID system.

Our objective was to determine whether the LPR system, as well as NARA’s parking program as
a whole, met NARA’s needs. Our objective also included a determination as to whether the
controls over the LPR system and the overall parking program were effective. We found that
NARA expended over $430,000 on the LPR system. However, over two years after its initial
estimated completion date the LPR system was not fully functional, preventing NARA from
depending on the LPR system to control parking at AII.

In addition, NARA management failed to ensure decisions regarding the LPR system were
adequately documented. The Government Accountability Office’s “Standards for Internal
Control in the Government” require all transactions and other significant events be clearly
documented and readily available for examination. These standards require all documentation
and records be properly managed and maintained. Despite this requirement, a lack of sufficient
documentation regarding the LPR system hindered our ability to identify and review decisions
NARA personnel made related to the LPR system.

We also found NARA’s parking policies and procedures were not current. This occurred
because NARA personnel decided not to update NARA’s parking policies and procedures to
reference use of the LPR system until the system had been accepted. Because the LPR system
had not been accepted, NARA’s parking policies and procedures did not reflect the actual
practices carried out by security officers and NARA personnel.

We made four recommendations to strengthen the effectiveness of NARA’s controls over the
parking program at AII. Management concurred with each of the recommendations and updated
NARA’s parking policies and procedures shortly after receiving the OIG report. (OIG Audit
Report #12-12, dated June 5, 2012.)




SEMIANNUAL REPORT TO CONGRESS                                                            Page 14
April 1, 2012 to September 30, 2012
AUDITS

NARA’s Office of Government Information Services
The Openness Promotes Effectiveness in our National Government Act of 2007 amended the
Freedom of Information Act (FOIA) to create the Office of Government Information Services
(OGIS) within NARA. OGIS opened on September 8, 2009. Our objective was to determine
whether OGIS was adequately established and was meeting the intent for which it was
established.

OGIS is responsible for working with executive branch agencies and requesters to improve the
administration of FOIA. Pursuant to 5 U.S.C. § 552(h), OGIS is charged with:
   •	 Reviewing agencies’ policies, procedures and compliance with FOIA;
   •	 Offering mediation services to FOIA requesters and agencies and issuing advisory
       opinions as appropriate; and
   •	 Recommending policy changes to Congress and the President.

In the absence of formal metrics directing OGIS how to meet its statutory requirements, we
analyzed OGIS case files, reviewed documentation, and interviewed OGIS officials to determine
whether OGIS was meeting its mission by adhering to its statutory requirements. Based on audit
work performed, we found OGIS met the requirements of 5 U.S.C. § 552(h).

However, we found the average volume of cases closed by OGIS decreased from 93 cases per
quarter in calendar years (CY) 2010 and 2011, to 26.5 cases per quarter in CY 2012. The cause
of this decline was attributed to a technological impediment associated with scanners used by
OGIS staff to input documents into a new case management system introduced by OGIS in the
fourth quarter of CY 2011. Due to this technological impediment OGIS’s process to close cases
in a timely manner was hindered.

In addition, although OGIS was able to meet its mission, our audit found additional resources
would allow OGIS to: 1) have a more robust program to review agencies’ policies, procedures
and compliance with FOIA and 2) adjust the roles of OGIS staff to segregate staff working with
agencies who request OGIS assistance from staff reviewing agencies’ policies, procedures, and
compliance with FOIA. A lack of resources, specifically a lack of staff, prevented OGIS from
implementing a more robust review process to better meet the requirements of 5 U.S.C. § 552(h).

We made two recommendations designed to improve OGIS’s ability to continue meeting the
requirements of 5 U.S.C. § 552(h). Management concurred with both recommendations. (OIG
Audit Report #12-14, dated September 11, 2012.)




SEMIANNUAL REPORT TO CONGRESS                                                          Page 15
April 1, 2012 to September 30, 2012
INVESTIGATIONS

                                       Investigations

The Office of Investigations (OI) receives and evaluates complaints, and conducts investigations
related to fraud, waste, and abuse in NARA programs and operations. This includes identifying
and recovering alienated NARA holdings. Investigations showing violations of Federal law,
NARA Directives, or contract terms/specifications may result in administrative sanctions, civil
action, or criminal prosecution. Such actions can include employee terminations, contractor
debarments, and court-imposed prison terms, probation, fines, or restitution. The OI may also
issue Management Letters to the Agency detailing systemic or timely problems or
vulnerabilities, and offer recommendations on how to correct them.

OI activities are broadly divided into two groups, general investigations and Archival Recovery
Team (ART) investigations. General investigations encompass the entire spectrum of criminal
and administrative investigations, including such topics as procurement fraud, employee
misconduct, and cyber crimes. ART investigations revolve around protecting NARA’s historical
holdings and returning items missing from NARA’s collection.

The OI has statutory law enforcement authority, and is presently staffed with four 1811 series
criminal investigators, an Investigative Archivist, and a Director of Computer Crimes. The OI is
based in Archives II in College Park, MD but conducts investigations at all NARA locations
across the country. The OI maintains a close relationship with NARA Security Services to
coordinate law enforcement efforts impacting NARA. Specifically, ART routinely coordinates
efforts with the Holdings Protection Team, a NARA Security Services unit charged with
proactively protecting and securing NARA holdings. We also liaison with the Department of
Justice (DOJ), the OIG community, and other law enforcement agencies and organizations.

Proactive Efforts

While conducting reactive investigations, the OI may identify vulnerable activities, programs, or
procurements. To address this, OI may open proactive investigations to determine if fraud or
other criminal activity has occurred, or to identify specific agency vulnerabilities. Findings from
these proactive investigations result in Management Letters or spin-off investigations. The OI
conducted two proactive investigations during this reporting period to document initiatives
related to Federal Employee Compensation Act fraud and information security violations. The
OI also issued a Management Letter highlighting vulnerabilities in visitor screening and contract
security training and response.

Overall Activity Summary

At the end of the last reporting period, 24 investigations were open. During this reporting
period, six investigations were opened and 13 were closed. Three of the closed investigations
were referred to NARA for action. At the end of this reporting period, 21 investigations were
open.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 16
April 1, 2012 to September 30, 2012
INVESTIGATIONS

                                      General Investigations

Updates on Previously Reported General Investigations

Former NARA Employee Guilty of Copyright Infringement
As a result of an OI investigation involving the execution of three search warrants, a NARA
employee was arrested and subsequently pleaded guilty to criminal copyright infringement.
According to his plea agreement, the employee provided potential customers with lists of at least
1,144 copyrighted movie titles and 971 copyrighted songs available for sale. The employee was
terminated in June 2012 and is scheduled to be sentenced in October 2012.

Former NARA Employee Accessed Child Pornography
A NARA employee was alleged to be accessing child pornography from his home computer by
an external law enforcement entity. An examination of the employee’s NARA computer found
no indication child pornography was accessed from the workplace. The case was accepted for
prosecution, and the employee pleaded guilty to receipt of child pornography. The employee
resigned from his position with NARA and on April 23, 2012 he was sentenced to five years in
Federal prison, followed by 10 years of supervised release.

NARA Employee Sent Threatening/Harassing Email
An employee used his NARA computer to send threatening / harassing emails to other
government employees. The OI referred these findings to NARA management and he was
issued an advisement letter.

Non-Profit Improperly Disposed of NARA Property
A non-profit organization participating in the General Services Administration (GSA) Computers
for Learning program mishandled excess NARA IT equipment. Although DoJ joined this joint
investigation with the GSA OIG, it was ultimately declined for prosecution.

NARA Employee Mishandled IRS Records
A NARA employee gained unauthorized access to sensitive IRS criminal records by opening a
sealed box. The employee then provided false statements about the incident to his supervisor.
The OI referred the case to NARA management, but no action was taken against the employee.

Former NARA Employee Stole Cash from Register at Presidential Library
A NARA employee stole money from an admissions cash register at a Presidential Library. The
employee admitted to the theft and resigned from his NARA position. The county prosecutor
accepted the case. The employee entered into a pre-trial diversion program and was ordered to
pay NARA $2,000 in restitution.

Contract Guard Misconduct
A supervisory contract security guard allegedly extorted subordinate employees, and engaged in
inappropriate relationships with other guards. The OI referred the findings to management, and
the contracting officer issued a letter to the contractor requiring an action plan to address
NARA’s concerns about contractor employee management and code of conduct.


SEMIANNUAL REPORT TO CONGRESS                                                            Page 17
April 1, 2012 to September 30, 2012
INVESTIGATIONS

Former NARA Employee Falsely Claimed Military Decorations
As part of an ongoing joint investigation with the VA OIG, a former NARA employee admitted
using NARA resources to falsify Bronze Star and Purple Heart certificates. The subject also
admitted he submitted falsified documents to receive VA benefits. The NARA portion of this
investigation was declined for prosecution after the U.S. Supreme Court ruled the Stolen Valor
Act was unconstitutional.

Veteran Falsified Service Record using Fabricated NARA Memo
An individual misrepresented his service record and fabricated a NARA memo. This joint VA
OIG investigation is still pending a prosecutorial determination.

Gate Arm Not Repaired by Contractor
A NARA employee who broke an inoperative gate arm at a parking lot was directed to pay the
maintenance contractor for the repairs. However, the gate arm was never repaired because all
gate arms, including the broken arm, were replaced by the contractor under a preexisting firm-
fixed price contract. The employee has now been refunded the money he paid to the contractor.

New General Investigation Highlights

Employees Engaged in Sexual Misconduct
Two NARA employees admitted to engaging in sexual acts while on duty at Archives II. The
acts were consensual and linked to a financial arrangement between the two employees. The
case was declined for criminal prosecution and the OI referred this matter to NARA management
for consideration of administrative action.

Removal and Destruction of Records
The OI initiated an investigation into the removal and destruction of records. This investigation
is open and ongoing.

NARA Employee Accessing Child Pornography
A NARA employee allegedly accessed internet child pornography. The OI found no evidence
the employee accessed child pornography from a NARA computer. This investigation is open
and ongoing.

                     Archival Recovery Team (ART) Activity
ART is an OI unit which investigates and recovers alienated federal records. The team works
with NARA archivists, the Holdings Protection Team, and other law enforcement organizations
responsible for investigating thefts, loss, or trafficking of cultural artifacts and fine art. Since
ART’s inception it has been directed by Special Agent in Charge (SAC) Kelly Maltagliati. In
September 2011, SAC Maltagliati retired after a long and distinguished career in federal law
enforcement spanning over two decades. Under her direction ART has grown tremendously, and
had remarkable successes. In recognition for these achievements, SAC Maltagliati was a finalist
for the Samuel J. Heyman Service to America Justice and Law Enforcement Medal in 2012. The
OIG wishes SAC Maltagliati and her family all the best. Her retirement is well deserved, but her
contributions will be sorely missed.

SEMIANNUAL REPORT TO CONGRESS                                                               Page 18
April 1, 2012 to September 30, 2012
INVESTIGATIONS

Thefts

ART investigates all allegations of theft of NARA holdings. Thefts may be internal or external
and involve NARA employees, contractors, interns, and researchers. ART refers all instances of
substantiated theft to DOJ for potential criminal prosecution. ART also refers internal thefts to
NARA management for administrative action.

Non-criminal Recoveries

Individuals may intentionally or unknowingly alienate a Federal record before it is accessioned
into NARA’s holdings. Once identified, alienated records are subject to recovery through a legal
process known as replevin, a common law action to recover property unlawfully taken.

When ART receives allegations a record or item was alienated, our Investigative Archivist
establishes whether the record should have been accessioned into NARA’s holdings. If the
record should have come to NARA, ART refers this substantiation to the NARA Office of
General Counsel (NGC) to begin the replevin process or other methods of recovering the
document, such as voluntary donation. If the holder of the document is unwilling to release or
donate a document, NGC may also pursue recovery through the DOJ civil division.

Proactive

Tips from our public sentinels are critical to successfully recovering of our nation’s records. To
leverage the power of their knowledge, ART engages in a variety of initiatives to establish
relationships within the historical artifacts community and the public at large. Several times
every year, ART staffs a display at various historical artifact shows throughout the country. In
this reporting period ART attended the Virginia Civil War Show in Fredericksburg, VA and the
Gettysburg Civil War Show in Gettysburg, PA.

ART also maintains a facebook page updating the public about upcoming shows and ART
happenings, along with other newsworthy items about document thefts, investigations, and
recoveries at NARA and other institutions worldwide. Visit the site at
http://www.facebook.com/archivalrecoveryteam.

Finally, ART reviews NARA holdings, identifying items at risk for theft and making
recommendations to NARA about what records should be restricted or protected. This reporting
period, ART referred to NARA management the results of a proactive examination of several
sets of records which had either been microfilmed, digitized, placed on exhibit or undergone
preservation treatment. ART’s investigative archivist examined these records at NARA’s two
main Washington D.C. area facilities, two Presidential Libraries and one regional archives
facility. During this review the investigative archivist was unable to locate several items from a
records group stored at NARA’s College Park, MD facility (Archives II). However, those items
may have simply been misfiled as ART found no evidence they were stolen or alienated. The
findings were referred to NARA management for information.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 19
April 1, 2012 to September 30, 2012
INVESTIGATIONS

Missing Documents

Working in conjunction with NARA, ART has established a listing of documents identified as
missing from NARA holdings. Some of these documents are known to have been stolen, but
have never been recovered. Others have simply been identified by NARA archivists or
researchers as missing. In both cases, ART has little or no evidence to work with, so the
documents are posted on the NARA website in the hope of receiving viable leads to recover
these materials. ART’s missing documents email received seven inquiries this reporting period.

Please visit the website at www.archives.gov/research/recover/missing-documents.html to learn
more. If you have information about any document listed on the site, or believe you have seen
Federal documents in private hands, please email ART at MissingDocuments@nara.gov.

Updates on Previously Reported ART Investigations

NARA Employee Sentenced for Internal Theft of Sound and Motion Picture Recordings
A former employee pleaded guilty to embezzling government property from NARA. Special
agents executed a search warrant on the subject’s residence and seized over 6,000 recordings.
On May 3, 2012, the former employee was sentenced to 18 months in Federal prison, followed
by 2 years of supervised release. He forfeited to 4,806 sound recordings to NARA and was
required to pay a $10,000 fine and $99,863 in restitution to victims to whom he sold the stolen
recordings.

Presidential Historian Sentenced for Theft of Historical Materials
As a result of a joint investigation with the Federal Bureau of Investigation, two subjects pleaded
guilty to conspiracy and theft of historical documents. The subjects visited numerous museums,
accessed collections of documents which they had determined to be of significant value, used
various techniques to steal them, and then sold some for personal gain. One subject, a
presidential historian, was sentenced on June 27, 2012 to seven years in Federal prison, followed
by three years of supervised release. He was ordered to pay $46, 525 to three dealers who
purchased stolen documents from him and forfeit more than 10,000 items recovered from his
apartment. The OI assisted the FBI in returning approximately 2,000 of seized items to their
original repositories. Sentencing of the co-conspirator is scheduled for November 2012.

Lincoln Pardon Recovered
An OI investigation led to NARA’s General Counsel filing a Federal lawsuit and successfully
recovering a Presidential pardon signed by Abraham Lincoln. The pardon is the only known
pardon of an African-American soldier personally granted by President Lincoln. This
historically significant document was set to be sold “to the highest bidder” but it is now back at
NARA and available for public research.

JFK Signature Clipped from a Letter
An archivist found a letter from then Senator John F. Kennedy to the General Counsel at the U.S.
Information Agency with the signature block removed. It will be difficult to identify the missing
signature as ART could not locate a full copy of the letter; recovery is unlikely.



SEMIANNUAL REPORT TO CONGRESS                                                               Page 20
April 1, 2012 to September 30, 2012
INVESTIGATIONS

Classified Material Unaccounted For at a NARA Records Center
An OI investigation into approximately 1,400 boxes of classified material which had been
identified as potentially missing from a NARA records center was closed pending completion
of inventory validation of the facility’s classified records holding area. ART initiated the
investigation to determine how these boxes were identified in an inventory database, but were
not accounted for on the shelves during the inventory; and whether any national security
information had been compromised. ART did not identify any national security issues, and many
previously unaccounted for boxes have been discovered within the facility, or paperwork
clarifying their status has been identified. Thus, until the records center has completed
its inventory resolution efforts for the classified records holding area, it will be unknown whether
or not there continues to be an issue, and it’s full scope if it still exists. ART will re-open or close
final this investigation once the inventory resolution efforts are complete and we have been
briefed on the results.

New ART Investigative Highlights

Missing Nuremberg Documents Found
Two documents missing for approximately 15 years from NARA’s Treasure Vault at the College

Park, MD facility were found in a collection of boxes containing miscellaneous documents. 

Both documents were part of an exhibit presented by the prosecution at the Nuremburg Trials. 

One document is a handwritten note by Heinrich Himmler for a speech to the Nazi guard, and the

other is the transcription excerpt of that speech.


Naval Dispatch Sold
A copy of the naval dispatch issued by the Secretary of the Navy in August 1945 announcing the
Japanese surrender was sold at auction. ART referred the matter to NARA management, but
recommended not seeking recovery. NARA staff found a similar copy on microfilm, and there
was no evidence this record was ever held by NARA. Management concurred.

Referrals for Recovery of Alienated Documents
During this reporting period, ART referred one investigation and five complaints to management
for recovery consideration. Eleven total referrals remain pending with management.

    •	 Page Missing from a U.S. Naval Deck Log
       A NARA researcher found a page was missing from a deck log for the U.S.S. Malvern.
       The page documents a visit by President Abraham Lincoln to the city of City Point, VA
       on March 25-26, 1865. The missing page was located at another institution and recovery
       is pending.

    •	 World War II Maps Donated to NARA
       A private attorney contacted ART on behalf a client interested in donating WWII maps to
       NARA. The maps are believed to have been created to assist Navy ships and Marine
       Corps personnel in determining where to land in Japan for the occupation by U.S. Forces
       after the Japanese surrender. ART referred the matter to the NGC and the donation is
       pending.



SEMIANNUAL REPORT TO CONGRESS                                                                  Page 21
April 1, 2012 to September 30, 2012
INVESTIGATIONS

    •	 Life-Saving Station Log Book
       A NARA employee found a life-saving station log book at another institution. The log
       book is consistent with holdings at the NARA Mid-Atlantic Region and NARA
       management and NGC have agreed to seek recovery.

    •	 Alienated State Department Document for Sale
       A NARA researcher found a document for sale that may be part of a State Department
       record. The historically significant document contains handwritten annotations from
       President Franklin D. Roosevelt. ART continues to gather information in support of this
       referral to NARA management for recovery consideration.

    •	 Letter from JFK to General Maxwell Taylor for Sale
       Staff at the John F. Kennedy Library found a letter from President Kennedy to his
       National Security Advisor for sale. ART continues to gather information in support of
       this referral to NARA management for recovery consideration.

    •	 Document Signed by Revolutionary War General for Sale
       ART found a document signed by Revolutionary War General Peter Muhlenberg for sale.
       The document is consistent with holdings at the NARA Mid-Atlantic region and ART
       continues to gather information in support of this referral to NARA management for
       recovery consideration.

Referrals to Management for Information Only
ART also referred five complaints to management for information only.

    •	 WWII Documents Not Microfilmed
       A NARA employee reported that over 339 boxes of oversize documents had not been
       microfilmed. The documents are part of a WWII record group that is available to
       researchers as microfilm. However, ART confirmed the oversize documents had not
       been microfilmed and referred the matter to NARA management to help ensure
       researcher access.

    •	 Permanent Internal Revenue Service (IRS) File Located at Private Institution
       The IRS investigation file of a former president was acquired by a private university.
       ART referred the matter to NARA management to facilitate ongoing recovery efforts
       through the IRS.

    •	 Historic Documents found in the Trash at NARA’s College Park, MD Facility
       A NARA employee threw historical documents in the trash while performing holdings
       maintenance. The documents were recovered before the trash was permanently removed
       from the area. The employee’s actions were not malicious, and they were reassigned to
       another project.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 22
April 1, 2012 to September 30, 2012
INVESTIGATIONS

    •	 Presidential Cabinet Chair
       ART assisted NARA’s counsel and a Presidential Library in determining whether a chair
       offered at auction was in fact a Presidential Cabinet Chair. NARA ultimately determined
       the Presidential Library has the actual Cabinet Chair.

    •	 President Lincoln Letter Missing
       A NARA archivist discovered a letter signed by Abraham Lincoln detailing an offer by
       James Gordon Bennett, Jr. to furnish his yacht for the Revenue Cutter Service is missing
       from NARA. There are no investigative leads on the whereabouts of the letter.
       However, ART will continue to look for the document through proactive efforts and may
       post the letter on NARA’s Missing Documents website.

                                      Computer Crimes Unit

In 2005, NARA OIG established a Computer Crimes Unit (CCU) within the OI. The CCU
provides laboratory and field support for digital evidence seized or surrendered to NARA OIG or
other law enforcement agencies working with the NARA OIG. Typical digital evidence forensic
support services include computer and computer storage examination, volatile and flash memory
storage device (cell phones, two-way pagers, Personal Digital Assistants, facsimile machines,
satellite phones, GPS receivers, digital cameras, and other consumer communication and
electronic storage devices) examination, on-site computer hard drive imaging, expert witness
testimony, data analysis to determine evidentiary value, and technical training. The CCU is
staffed by one full-time computer crimes investigator.

Throughout the reporting period, the CCU continued to provide considerable support to an
ongoing investigation related to the theft of a large amount of historical documents from NARA
and multiple other repositories. The CCU completed forensic examinations of a large volume of
digital evidence seized during a series of search warrants. During the examination of digital
evidence, the CCU identified a large volume of evidence related to the planning and conduct of
the thefts including e-mail correspondence, online research of the historical documents at various
repositories, and travel records related to visits to these repositories.

The CCU also completed a preliminary investigation into allegations a NARA employee
installed unauthorized software on their NARA laptop. The NARA Inappropriate Use Working
Group (IUWG) referred the allegations to the OI after interviewing the NARA employee. The
employee admitted to the IUWG he installed unauthorized software, and a CCU analysis of his
issued laptop confirmed his admission.

Finally, the CCU supported several investigations being conducted by the Federal
Communications Commission (FCC) OIG. In one of the FCC OIG cases, the CCU obtained,
processed, and forensically examined approximately five-hundred and seventy (570) gigabytes
of digital evidence from a desktop computer. In another case, the CCU examined digital
evidence for three (3) computer workstations. This investigation is ongoing.




SEMIANNUAL REPORT TO CONGRESS                                                             Page 23
April 1, 2012 to September 30, 2012
INVESTIGATIONS

                                         OIG Hotline

The OIG Hotline provides a confidential channel for reporting fraud, waste, abuse, and
mismanagement to the OIG. In addition to receiving telephone calls at a toll-free Hotline
number and letters to the Hotline post office box, we also accept e-mail communication from
NARA’s internal network or the Internet through the Hotline e-mail system. Walk-ins are
always welcome. Visit http://www.archives.gov/oig/ for more information, or contact us:

    •   By telephone
        Washington, DC, Metro area: (301) 837-3500 

        Toll-free and outside the Washington, DC, Metro area: (800) 786-2551 

    •   By mail
        NARA OIG Hotline
        P.O. Box 1821

        Hyattsville, MD 20788-0821 

    •   By e-mail
        oig.hotline@nara.gov
    •   By Fax
        (301) 837-0879
    •   By online referral form
        http://www.archives.gov/oig/referral-form/index.html

The Office of Investigations promptly and carefully reviews calls, letters, and e-mail to the
Hotline. We investigate allegations of suspected criminal activity or civil fraud and conduct
preliminary inquiries on non-criminal matters to determine the proper disposition. Where
appropriate, referrals are made to OIG audit staff, NARA management, or external authorities.
Substantive Hotline contacts are captured as complaints in the Office of Investigations.

                         OIG Hotline Activity for the Reporting Period
                     Complaints received                                      55
                     Complaints closed pending response from NARA              5
                     Complaints closed final                                  45
                     Complaints open to Investigations                         5


                          Contractor Self Reporting Hotline
As required by the Federal Acquisition Regulation, a web-based form allows NARA contractors
to notify the OIG, in writing, whenever the contractor has credible evidence a principal,
employee, agent, or subcontractor of the contractor has committed a violation of the civil False
Claims Act or a violation of Federal criminal law involving fraud, conflict of interest, bribery, or
gratuity violations in connection with the award, performance, or closeout of a contract or any
related subcontract. The form can be accessed through the OIG’s home page, or found directly
at: http://www.archives.gov/oig/contractor-form/index.html.


SEMIANNUAL REPORT TO CONGRESS                                                               Page 24
April 1, 2012 to September 30, 2012
TOP TEN MANAGEMENT CHALLENGES

                                            Overview
Under the authority of the Inspector General Act, the NARA OIG conducts and supervises
independent audits, investigations, and other reviews to promote economy, efficiency, and
effectiveness; and to prevent and detect fraud, waste, and mismanagement. To fulfill our mission and
help NARA achieve its strategic goals, we have aligned our programs to focus on areas we believe
represent the agency’s most significant challenges. We have identified those areas as NARA’s top
ten management challenges.

One area not identified below is the impact of the major NARA transformation instituted under the
direction of Archivist of the United States David S. Ferriero. The organizational structure the
Archivist inherited when he came to NARA two short years ago has been radically re-engineered,
and the majority of senior staff who held positions of authority under the former Archivist have left
the agency. The process of transforming NARA to meet our core mission in this digital age is
essential, but organizational transformations by their very nature may precipitate unforeseen
challenges to staff and management alike.

1. Electronic Records Archives
NARA initiated the Electronic Records Archive (ERA) program in order to address the challenge of
ingesting, preserving and providing access to our nation's electronic records for as long as needed.
However, virtually since inception the program has been fraught with delays, costs overruns, and
technical short comings and deficiencies. Elements of these problems were identified by NARA's
Office of Inspector General and the Government Accountability Office (GAO). In August 2010,
OMB placed ERA on its high-priority list of 26 high-risk IT projects selected from across the Federal
government. On September 30, 2011 the development contract between NARA and Lockheed Martin
Corporation concluded. However, many core requirements were not fully addressed, and ERA lacks
the originally envisioned functionality.

The program has now transitioned to an Operations and Maintenance (O&M) phase under a 10-
year, $240 million contract with IBM. The O&M tasks to be performed by IBM, under a firm-
fixed-price (FFP) arrangement, include: help desk operations, incident management, problem
management, hardware and software maintenance, asset and configuration management,
deployment management, capacity management, availability management, security services,
backup and recovery services, and ingest operations. The contract will also include replacing and
updating the technologies comprising ERA, and correcting and adapting ERA functionality as
necessary to meet stakeholder needs. These additional tasks will be performed under Technical
Direction Letters (TDLs) which may be either FFP or time-and-materials (T&M) arrangements.
ERA faces many challenges going forward, including addressing increased volumes of data to be
ingested and increased number of users to be supported now that ERA use is mandatory for all
Federal agencies. However, the greatest challenge will be NARA's ability (with vendor support) to
effectively meet stakeholder needs, while operating and maintaining a system whose development
failed to meet core benchmark requirements and lacks originally envisioned capabilities.




SEMIANNUAL REPORT TO CONGRESS                                                                 Page 25
April 1, 2012 to September 30, 2012
TOP TEN MANAGEMENT CHALLENGES

2. Improving Records Management
Part of NARA’s mission is safeguarding and preserving the records of our government, thereby
ensuring people can discover, use, and learn from this documentary heritage. NARA provides
continuing access to the essential documentation of the rights of American citizens and the actions
of their government. The effective management of these records is key to accomplishing this
mission. NARA must work with Federal agencies to ensure the effective and efficient appraisal,
scheduling, and transfer of permanent records, in both traditional and electronic formats. The major
challenge is how best to accomplish this component of our overall mission while reacting and
adapting to a rapidly changing technological environment in which electronic records, particularly
e-mail, proliferate. In short, while the ERA system is intended to work with electronic records
received by NARA, we need to ensure the proper electronic and traditional records are in fact
preserved and sent to NARA in the first place.

To help address this issue, NARA directs the Electronic Records Management (ERM) initiative, one
of 24 government-wide initiatives under the E-Government Act of 2002. The ERM initiative will
provide guidance to agencies in managing and transferring their permanent electronic records to
NARA, in an increasing variety of data types and formats. In June 2008, GAO recommended NARA
develop and implement an approach to provide oversight of agency electronic records management
programs, to provide adequate assurance that NARA guidance is effective and the agencies are
following electronic records guidance. This area was again affected in November 2011 with the
issuance of a Presidential Memorandum titled Managing Government Records. This begun a new
Executive Branch-wide effort to reform records management policies and practices. In August 2012,
the Office of Management and Budget (OMB) issued Memorandum 12-18, Managing Government
Records Directive, creating a robust records management framework. This Directive requires
agencies, to the fullest extent possible, to eliminate paper and use electronic recordkeeping. It is
applicable to all executive agencies and to all records, without regard to security classification or
any other restriction. This Directive also identifies specific actions to be taken by NARA, OMB,
and the Office of Personnel Management (OPM) to support agency records management
programs. Agencies must manage all permanent electronic records in an electronic format by
December 31, 2019, and must manage both permanent and temporary email records in an
accessible electronic format by December 31, 2016. NARA, its Government partners, and Federal
agencies are challenged with meeting these deadlines, determining how best to manage electronic
records in accordance with this guidance, and how to make ERM and e-Government work more
effectively.

3. Information Technology Security
The Archivist identified IT Security as a material weakness under the Federal Managers’ Financial
Integrity Act reporting process beginning in FY 2007. NARA’s Office of Information Services (I)
conducted an independent assessment of the IT security program using the Program Review for
Information Security Management Assistance (PRISMA) methodology developed by the National
Institute for Standards and Technology (NIST) in FY 2007. The assessment stated NARA’s policy
and supporting procedures for IT security were weak, incomplete, and too dispersed to be effective.
Over five years later, NARA officials continue to work to address weaknesses identified during the
assessment.



SEMIANNUAL REPORT TO CONGRESS                                                                Page 26
April 1, 2012 to September 30, 2012
TOP TEN MANAGEMENT CHALLENGES

IT security continues to present major challenges for NARA, including physical security of IT
hardware, and technical vulnerabilities within our electronic systems themselves and how NARA
operates them. Annual assessments of NARA’s compliance with the Federal Information Security
Management Act have consistently identified program areas in need of significant improvement. The
confidentiality, integrity, and availability of our electronic records and information technology
systems are only as good as our IT security infrastructure. A 2011 GAO report identified significant
weaknesses in access controls and other information security controls. In FY 2012, an OIG audit
performed by contractors identified multiple deficiencies with NARA’s network architecture, many
of which stem from the lack of strategic planning with regard to the redundancy and resiliency and
overall design of the network. These issues not only allow for security and performance problems,
but they inhibit NARA IT management from effectively establishing a tactical and innovative
strategy for the next generation of NARA’s network. Each year, risks and challenges to IT security
continue to be identified. NARA must ensure the security of its data and systems or risk undermining
the agency’s credibility and ability to carry out its mission.

4. Expanding Public Access to Records
The records of a democracy’s archives belong to its citizens. NARA’s challenge is to more
aggressively inform and educate our customers about the services we offer and the essential
evidence to which we can provide access. Unfortunately, approximately half of NARA’s textual
holdings have not been processed to allow efficient and effective access to these records. To meet
its mission, NARA must work to ensure it has the processes and resources necessary to establish
intellectual control over this backlog of unprocessed records.

Another challenge for NARA, given society’s growing expectation for easy and near-immediate
access to information on-line, will be to provide such access to records created digitally (i.e., “born
digital”) and to identify those textual records most in demand so they can be digitized and made
available electronically. ERA’s diminished access capabilities compound this problem. NARA’s
role in ensuring the timeliness and integrity of the declassification process of classified material held
at NARA is also vital to public access.

5. Meeting Storage Needs of Growing Quantities of Records
NARA-promulgated regulation 36 CFR Part 1228, “Disposition of Federal Records,” Subpart K,
“Facility Standards for Records Storage Facilities,” requires all facilities housing Federal records
to meet defined physical and environmental requirements by FY 2009. NARA’s challenge is to
ensure NARA’s own facilities, as well as those used by other Federal agencies, are in
compliance with these regulations; and to effectively mitigate risks to records which are stored in
facilities not meeting these standards.

6. Preservation Needs of Records
As in the case of our national infrastructure (bridges, sewer systems, etc.), NARA holdings grow
older daily and face degradation associated with time. This affects both traditional paper records, and
the physical media that electronic records and audio/visual records are stored on. Per management,
preservation resources have not been able to adequately address the growth in holdings needing
preservation action. As a result, backlogs have grown and NARA is not projected to meet its long


SEMIANNUAL REPORT TO CONGRESS                                                                    Page 27
April 1, 2012 to September 30, 2012
TOP TEN MANAGEMENT CHALLENGES

range performance target for FY 2016. Preserving and providing access to records is a fundamental
element of NARA’s duties to the country, and NARA cannot provide access to records unless it can
preserve them for as long as needed. The backlog of records needing preservation action continues to
grow. NARA is challenged to address this backlog and future preservation needs, including the data
integrity of electronic records. The challenge of ensuring NARA facilities meet environmental
standards for preserving records (see OIG Challenge #5) also plays a critical role in the preservation
of Federal records.

7. Improving Project Management
Effective project management, particularly for IT projects, is essential to obtaining the right
equipment and systems to accomplish NARA’s mission. Complex and high-dollar contracts require
multiple program managers, often with varying types of expertise. NARA is challenged with
planning projects, developing adequately defined requirements, analyzing and testing to
support acquisition and deployment of the systems, and providing oversight to ensure effective or
efficient results within costs. Currently, IT systems are not always developed in accordance with
established NARA guidelines. These projects must be better managed and tracked to ensure cost,
schedule, and performance goals are met.

As an example, GAO reported NARA did not document the results of briefings to its senior
management oversight group during the development of NARA’s largest IT project, the ERA
program. There is little evidence the group identified or took appropriate corrective actions, or
ensured such actions were taken and tracked to closure. Without adequate oversight evaluating
project progress, including documenting feedback and action items from senior management,
NARA will not be able to ensure projects are implemented at acceptable cost and within reasonable
time frames. GAO also reports NARA has been inconsistent in its use of earned value management
(EVM), a project management approach providing objective reports of project status and early
warning signs of cost and schedule overruns. Inconsistent use of key project management
disciplines like EVM limits NARA’s ability to effectively manage projects and accurately report on
their progress.

8. Physical and Holdings Security
The Archivist has identified security of collections as a material weakness under the FMFIA
reporting process. Document and artifact theft is not a theoretical threat; it is a reality NARA has
been subjected to time and time again. NARA must maintain adequate levels of security to ensure
the safety and integrity of persons and holdings within our facilities. This is especially critical in
light of the security realities facing this nation and the risk our holdings may be pilfered, defaced,
or destroyed by fire or other man-made and natural disasters. Not only do NARA’s holdings have
immense historical and financial value, but we hold troves of national security information as well.
Developments such as the creation of the Holdings Protection Team and implementation of stricter
access controls are welcome additions to NARA’s security posture and should be commended.
However, NARA must continually strive to improve in this area.




SEMIANNUAL REPORT TO CONGRESS                                                                   Page 28
April 1, 2012 to September 30, 2012
TOP TEN MANAGEMENT CHALLENGES

9. Contract Management and Administration
The GAO has identified Commercial Services Management (CSM) as a government-wide
initiative. The CSM initiative includes enhancing the acquisition workforce, increasing
competition, improving contract administration skills, improving the quality of acquisition
management reviews, and strengthening contractor ethics requirements. Effective contract
management is essential to obtaining the right goods and services at a competitive price to
accomplish NARA’s mission. NARA is challenged to continue strengthening the acquisition
workforce and to improve the management and oversight of Federal contractors. NARA is also
challenged with reviewing contract methods, to ensure a variety of procurement techniques are
properly used in accordance with laws, regulations and best practices.

10. Management of Internal Controls
OMB Circular A-123, Management’s Responsibility for Internal Control, explains management
is responsible for establishing and maintaining internal control to achieve the objectives of
effective and efficient operations, reliable financial reporting, and compliance with applicable
laws and regulations. GAO has reported NARA has not established an enterprise risk
management capability, thus reducing its ability to anticipate future challenges and avoid
potential crises. Currently, the agency has not established an effective Internal Control program,
and OIG audit recommendations from as far back as FY 2009 concerning an Internal Control
program have yet to be implemented. Thus, NARA is vulnerable to risks that may not be
foreseen or mitigated, and does not have the ability to self-identify and appropriately manage or
mitigate significant deficiencies. Establishment of an Internal Control program is critical as it
provides several benefits including (1) improved decision making, (2) risk identification,
management, and mitigation, (3) opportunities for process improvement, (4) effective use of
budgeted resources, and (5) strategic planning. NARA’s challenge is to ensure the agency is in
compliance with OMB Circular A-123; and to develop and fully implement an Internal Control
program.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 29
April 1, 2012 to September 30, 2012
REPORTING REQUIREMENTS

MANDATED BY THE INSPECTOR GENERAL ACT OF 1978, AS 

          AMENDED, AND OTHER LAWS 

REQUIREMENT             SUBJECT                                             PAGE(S)

Section 4(a)(2)         Review of legislation and regulations               7, 9

Section 5(a)(1)         Significant problems, abuses, and deficiencies      2 – 4, 10 – 15,
                                                                            17 – 23

Section 5(a)(2)         Significant recommendations for corrective action   2 – 4, 10 – 15

Section 5(a)(3)         Prior significant recommendations unimplemented     35

Section 5(a)(4)         Summary of prosecutorial referrals                  32

Section 5(a)(5)         Information or assistance refused                   35

Section 5(a)(6)         List of reports issued                              33

Section 5(a)(7)         Summaries of significant reports                    2 – 4, 10 – 15

Section 5(a)(8)         Audit Reports—Questioned costs                      33

Section 5(a)(9)         Audits Reports—Funds put to better use              34

Section 5(a)(10)        Prior audit reports unresolved                      35

Section 5(a)(11)        Significant revised management decisions            35

Section 5(a)(12)        Significant revised management decisions            35
                        with which the OIG disagreed

P.L. 110-181            Annex of completed contract audit reports           35

P.L. 111-203            Reporting on OIG peer review                        8




SEMIANNUAL REPORT TO CONGRESS                                                      Page 30
April 1, 2012 to September 30, 2012
REPORTING REQUIREMENTS

STATISTICAL SUMMARY OF INVESTIGATIONS


Investigative Workload
        Complaints received this reporting period                                         55
        Investigations pending at beginning of reporting period                           24
        Investigations opened this reporting period                                        6
        Investigations closed this reporting period                                       13
        Investigations carried forward this reporting period                              21
Categories of Closed Investigations
        Fraud                                                                              1
        Conflict of Interest                                                               0
        Contracting Irregularities                                                         1
        Misconduct                                                                         4
        Larceny (theft)                                                                    0
        Other                                                                              7
Investigative Results
        Cases referred – accepted for prosecution                                          1
        Cases referred – declined for prosecution                                          5
        Cases referred – pending prosecution decision                                      1
        Arrest                                                                             0
        Indictments and informations                                                       0
        Convictions                                                                        0
        Fines, restitutions, judgments, and other civil and administrative recoveries   $158,388
        NARA holdings recovered                                                          1950
Administrative Remedies
        Employee(s) terminated                                                             1
        Employee(s) resigned                                                               3
        Employee(s) suspended                                                              0
        Employee(s) given letter of reprimand or warnings/counseled                        0
        Employee(s) taking a reduction in grade in lieu of administrative action           0
        Contractor (s) removed                                                             0

        Individual(s) barred from NARA facilities                                          0


SEMIANNUAL REPORT TO CONGRESS                                                             Page 31
April 1, 2012 to September 30, 2012
REPORTING REQUIREMENTS

                        SUMMARY OF PROSECUTORIAL REFERRALS
                                        Requirement 5(a)(4)
Accepted for Prosecution

Removal and Destruction of Records
The OI initiated an investigation into the removal and destruction of records. This investigation
was accepted for criminal prosecution and is open and ongoing.

Declined for Prosecution

Employee Sexual Misconduct
Two NARA employees admitted to engaging in sexual acts while on duty. The acts were
consensual and linked to a financial arrangement between the two employees. The case was
declined for Federal and state criminal prosecution.

Improper Disposition of NARA Property
A non-profit organization participating in the General Services Administration (GSA) Computers
for Learning program mishandled excess NARA IT equipment. The joint investigation with the
GSA OIG was declined for Federal prosecution.

Veteran Benefit Fraud
As part of an ongoing joint investigation with the VA OIG, a former NARA employee admitted
using NARA resources to falsify Bronze Star and Purple Heart certificates. The subject admitted
he submitted falsified documents to receive VA benefits. The NARA portion of the
investigation was declined for Federal prosecution and the VA OIG investigation is ongoing.

External Access of Child Pornography
A NARA employee was alleged to have accessed internet child pornography. The OI found no
evidence the employee accessed child pornography from a NARA computer. This investigation
was declined for Federal prosecution, but remains open and ongoing.

Pending Prosecutorial Determination

Stolen Valor
An individual misrepresented his service record and fabricated a NARA memo. This joint VA
OIG investigation is pending a prosecutorial determination.




SEMIANNUAL REPORT TO CONGRESS                                                             Page 32
April 1, 2012 to September 30, 2012
        REPORTING REQUIREMENTS

                                         LIST OF REPORTS ISSUED
                                               Requirement 5(a)(6)
Report      Title                                    Date          Questioned      Unsupported   Funds Put to
No.                                                                Costs           Costs         Better Use
12-09       Audit of the Data Center Consolidation
                                                     05/10/2012        0                0             0
            Initiative at NARA
12-10       Follow-up Review of the Process of
            Safeguarding and Accounting for          09/13/2012        0                0             0
            Presidential Artifacts
12-11       Information Management Resources
            Inc. (IMRI) Network Discovery and        08/27/2012        0                0             0
            Assessment Report
12-12       Audit of NARA’s Parking Program          06/05/2012        0                0             0
12-14       Audit of NARA’s Office of
                                                     09/11/20122       0                0             0
            Government Information Services
12-15       Audit of NARA’s Classified Systems       07/23/2012        0                0             0
12-17       Audit of NARA’s Public Transit
                                                     08/27/2012        0                0          $9,262.40
            Subsidy Program
12-19       System Review Report on the Nuclear
            Regulatory Commission’s Office of        09/27/2012        0                0             0
            Inspector General Audit Organization

                            AUDIT REPORTS WITH QUESTIONED COSTS
                                               Requirement 5(a)(8)

                                                      Number of
                                                                              DOLLAR VALUE
        Category                                                           Questioned       Unsupported
                                                       Reports
                                                                             Costs             Costs

        A. For which no management decision
                                                            1              $3,970,827        $3,970,827
           has been made by the commencement
           of the reporting period
        B. Which were issued during the
                                                            0                 $0                 $0
           reporting period
           Subtotals (A + B)                                1              $3,970,827        $3,970,827
        C. For which a management decision has
                                                            1              $3,970,827        $3,970,827
           been made during the reporting period
           (i) dollar value of disallowed cost              0                 $0                 $0
           (ii) dollar value of costs not
                                                            1              $3,970,827        $3,970,827
           disallowed
        D. For which no management decision
           has been made by the end of the                  0                 $0                 $0
           reporting period
        E. For which no management decision
                                                            0                 $0                 $0
           was made within 6 months




        SEMIANNUAL REPORT TO CONGRESS                                                             Page 33
        April 1, 2012 to September 30, 2012
REPORTING REQUIREMENTS

              AUDIT REPORTS WITH RECOMMENDATIONS THAT

                      FUNDS BE PUT TO BETTER USE

                                      Requirement 5(a)(9)




              CATEGORY                           NUMBER      DOLLAR VALUE
A. For which no management decision has
   been made by the commencement of                  2         $9,050,000
   the reporting period
B. Which were issued during the reporting
                                                     1          $9,262
   period
   Subtotals (A + B)                                 3         $9,059,262
C. For which a management decision has
                                                     0            $0
   been made during the reporting period
   (i) dollar value of recommendations
                                                     0            $0
        that were agreed to by management
        Based on proposed management
                                                     0            $0
        action
        Based on proposed legislative
                                                     0            $0
        action
   (ii) dollar value of recommendations
        that were not agreed to by                   0            $0
        management
D. For which no management decision has
   been made by the end of the reporting             3         $9,059,262
   period
E. For which no management decision was
   made within 6 months of issuance                  3         $9,059,262




SEMIANNUAL REPORT TO CONGRESS                                               Page 34
April 1, 2012 to September 30, 2012
REPORTING REQUIREMENTS

                               OTHER REQUIRED REPORTS


REQUIREMENT                                  CATEGORY                             SUMMARY
5(a)(3)                    Prior significant recommendations unimplemented       None
5(a)(5)                    Information or assistance refused                     None
5(a)(10)                   Prior audit reports unresolved                        None
5(a)(11)                   Significant revised management decisions              None
5(a)(12)                   Significant revised management decisions with which   None
                           the OIG disagreed




            ANNEX ON COMPLETED CONTRACT AUDIT REPORTS
Section 845 of the 2008 Defense Authorization Act, Public Law 110-181, requires certain
information on completed contract audit reports containing significant audit findings be included
as an annex to this report. While the OIG audited the ERA and other contracts during this
period, they were generally program audits as opposed to contract audits.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 35
April 1, 2012 to September 30, 2012
